Management Framework:
  Award Monitoring



 National Science Foundation
 Office of Inspector General


       September 30, 2003
        OIG 03-2-015
MEMORANDUM

DATE:                 September 30, 2003

TO:                   Thomas N. Cooley
                      Chief Financial Officer

FROM:                 Deborah H. Cureton
                      Associate Inspector General for Audit

SUBJECT:              Management Framework: Award Monitoring


Attached please find our final report on Management Framework: Award Monitoring.
The intent of our report is to suggest principles and methods used by Federal and private
grant-making organizations that, when taken as a whole, effectively implement a strategic
management framework for monitoring award instruments. Because the report contains
no recommendations, a response is not required.

If you have any questions, please contact Karen Scott or me at (703) 292-7100.


Attachment

cc :   Mary Santonastasso
       Christine Boesz
       Karen Scott
Management Framework: Award Monitoring




                           September 30, 2003
                                OIG 03-2-015




                   National Science Foundation
                    Office of Inspector General
Introduction

        The National Science Foundation’s (NSF) mission is to promote the
        progress of science; to advance the national health, prosperity, and
        welfare; to secure the national defense; and for other purposes. NSF
        achieves its mission by awarding merit-based grants and agreements to
        individual researchers and groups, in partnership with colleges,
        universities, and other institutions – public, private, state, local, and
        federal – throughout the US. By providing these resources, NSF
        contributes to the health and vitality of the nation’s research and education
        enterprise, which enables and enhances the nation’s capacity for sustained
        growth and prosperity.

        According to NSF statistics for fiscal year (FY) 2002, its budget of $4.774
        billion provided approximately $4.543 billion for 21,670 awards for grants
        and cooperative agreements; approximately half of NSF’s funding went to
        50 NSF awardees. The award funding varied widely, ranging from
        approximately $115,710 for the average research award to over $30
        million for the Terascale Computing System project. The remaining $231
        million of NSF’s FY 2002 budget funded NSF’s Administration and
        Management, which provides all operating support for the activities of the
        agency: evaluating and processing proposals, issuing awards, and
        overseeing grants and projects.1

        As the awards serve as the primary vehicle for NSF to achieve its mission,
        NSF has established a robust system of award selection. NSF’s merit
        review process evaluates all proposals for research and education projects
        using two criteria: the intellectual merit of the proposed activity and the
        broader impacts of the activity on society. Specifically addressed in these
        criteria are the creativity and originality of the idea, the development of
        human resources, and the potential impact on the research and education
        infrastructure.

        However, NSF’s administration of its grants and cooperative agreements,
        once they have been awarded, has not been as strong. In the past, the NSF
        minimized its own involvement in post award management and
        emphasized the awardee’s responsibilities to prudently manage the award
        funds and activities, and to comply with the applicable Federal
        requirements for financial management systems, procurement policies and
        procedures, and property management.

        1
          Administration and Management includes operating expenses such as the salaries and
        expenses for all employees, as well as training and travel, IT investments, rent, human
        resources, and accounts for the Office of Inspector General.


                                           1
This approach to award administration has been an ongoing issue for NSF.
In 1991, in testimony before Congress,2 the General Accounting Office
(GAO) stated that the agency did little to monitor compliance with Federal
requirements and that its post award involvement with awardees focused
either on technical aspects of the research or on general educational
activities. More recently, NSF’s FY 2001 and 2002 Independent
Auditor’s Reports identified award management as a reportable condition
for the agency stating that adequate procedures for monitoring awardees’
administrative and financial management practices and compliance with
laws and regulations are not in place. In addition, our office has identified
Award Administration as a management challenge for NSF in both FY
2001 and 2002.

NSF management has recognized these concerns and is taking steps to
improve its award administration and monitoring activities. NSF’s
Management Controls Committee has identified award administration as a
performance goal and is addressing potential improvements. In addition,
NSF has developed a draft risk assessment and on-site award monitoring
document to provide guidance to staff responsible for monitoring the
financial aspects of the award. The guide is intended to establish the
strategic framework for assessing and managing NSF awardee risks and
assets. Using the guide, NSF has begun to perform on-site evaluations of
awardees that have been identified as high-risk through the risk
assessment. Also, NSF has contracted with the consulting firm Booz-
Allen & Hamilton, Inc., to perform an agency-wide analysis of NSF’s
business operations, including award management and oversight.
However, NSF still needs to focus its attention on this critical management
challenge as the Federal Government increases its emphasis on agency
accountability for how funds are spent, as well as the prevention and
identification of erroneous payments.




2
 Testimony on September 24, 1991, “Grant Management: Improvements Needed in
Federal Oversight of NSF Grants” (GAO/T-RCED-91-92).


                               2
Objectives, Scope, and Methodology
    In order to support NSF’s efforts to address this management challenge,
    we undertook a review of how other grant making organizations monitor
    their awards.

    Our objective was to survey grant-making organizations, both Federal and
    private, to identify principles and methods of effective post award
    monitoring and oversight. In this survey, we emphasized policies and
    practices for monitoring both the financial and programmatic aspects of
    the awards.

    With input from NSF management, we selected several grant-making
    organizations, both Federal and non-Federal, to identify the policies and
    practices these organizations use to oversee their awards after they have
    been made. The Federal agencies we reviewed include the Department of
    Education, the Department of Health and Human Services including its
    National Institutes of Health, the Department of Justice, and the Office of
    Naval Research. We also reviewed the Rockefeller Foundation, the Sloan
    Foundation, and the Washington State Department of Health, to gain
    insights from private foundations, as well as a state government.

    To determine how these organizations monitored awards, we obtained and
    reviewed their policies, guidance, and other documentation related to
    award oversight. We held meetings and teleconferences with the
    organizations’ grant management and policy personnel to discuss their
    specific policies and practices for monitoring the awards once they have
    been made. In addition, we reviewed various GAO and Office of
    Inspector General reports related to the organizations’ award monitoring
    practices.

    We also reviewed information on award administration from the
    applicable Office of Management and Budget circulars, and attended
    training specific to grant monitoring. We reviewed documentation from
    the Department of Commerce and the Environmental Protection Agency
    regarding their award administration activities. In addition, we examined
    relevant internal control guidance issued by GAO and the Committee of
    Sponsoring Organizations of the Treadway Commission.3


    3
      The Committee of Sponsoring Organizations of the Treadway Commission is a
    voluntary private sector organization dedicated to improving the quality of financial
    reporting through business ethics, effective internal controls, and corporate governance.
    COSO was originally formed in 1985 to sponsor the National Commission on Fraudulent
    Financial Reporting, an independent private sector initiative that studied the causal
    factors that can lead to fraudulent financial reporting and developed recommendations for


                                       3
The fieldwork for this review was performed in 2002. We did not intend
this survey to be an audit, and, as such, generally accepted government
audit standards do not apply. In addition, we did not evaluate or
independently verify statements made by the surveyed organizations about
how effectively or the extent to which these practices were working.




public companies and their independent auditors, for the SEC and other regulators, and
for educational institutions.


                                  4
Results of Survey
        The purpose of this review is to provide guidance to assist NSF in
        strengthening its own post award oversight activities. Post award
        oversight consists of the activities after an award has been made that are
        necessary to manage, monitor, and close out an award to ensure Federal
        funds are accounted for and are used for the purpose of the grant or
        cooperative agreement. This includes reviewing and approving
        administrative changes to grants; monitoring projects for performance and
        financial compliance; providing technical assistance and feedback to
        awardees on their progress; reviewing awardees’ final project outcomes
        and disseminating the results; and closing out expired grants timely.4

        The report describes a framework of management principles that are
        critical to establishing and implementing an effective award monitoring
        compliance program. These management principles are based on the
        internal control framework advocated by the Committee of Sponsoring
        Organizations of the Treadway Commission (COSO),5 and require the
        leadership and support of all levels of agency management to be
        implemented successfully. Within this framework, the report identifies
        policies and practices established and implemented by Federal and non-
        Federal organizations to ensure their award administration activities are
        effective. It also provides a description of the procedures they follow and
        examples of the tools they use to facilitate the process. Although many of
        the practices we discuss apply to all aspects of award administration, we
        have emphasized the monitoring aspects, including providing technical
        assistance to the awardee when needed.

        It is also important to note that without an overarching management
        framework supporting the specific award oversight policies and practices,
        it is difficult for award administration and monitoring activities to succeed
        in accomplishing the goal of ensuring compliance with administrative and
        financial requirements.

        Award Monitoring is Important for NSF

        Monitoring is the process by which the programmatic and business
        management performance of an award is continuously reviewed
        throughout its life by program and grants officials.6 The purpose of
        monitoring is twofold. First, monitoring helps promote the awardees’
        progress in achieving the research goals and objectives by providing

        4
          This definition is based on the Department of Education description of post-award
        activities.
        5
          See footnote 3 on p. 3.
        6
          ©Management Concepts Incorporated.


                                          5
oversight of the awardee’s programmatic and business management
performance, and by providing technical assistance to awardees to
improve their performance when necessary. Second, monitoring fulfills
the agency’s stewardship responsibilities over Federal funds. All Federal
agencies are accountable for ensuring that public funds are used
appropriately, for the stated purpose, and for ensuring that funds are not
misspent due to errors, poor business and management practices, or
intentional fraud or abuse. Monitoring does not seek to interfere with the
research performed under the award or to place additional burdens on
awardees. Instead, monitoring is meant to help ensure that NSF and the
nation benefits from the investment of public funds in the awards.

Thus, through monitoring, NSF can meet its stewardship responsibilities
as well as ensure that its awardees meet the objectives and requirements of
their awards. This is an essential component in fulfilling NSF’s mission to
promote the progress of science. NSF promotes science by making
awards through grants and cooperative agreements, rather than directly
participating in science and engineering research. Thus, NSF’s success in
fulfilling its mission is intricately tied to that of its awardees’ success in
advancing science through the research funded by the NSF awards. For
NSF to meet its mission and succeed in advancing science and
engineering, its awardees must also be successful.

To be effective, award administration and monitoring must be established
and implemented as part of an integrated management framework that
provides reasonable assurance that its operations are effective and
efficient; its financial reporting is reliable; and its activities are in
compliance with applicable laws and regulations. The management
framework needs to institutionalize award administration and monitoring
activities into the operations of the agency so that they become routine as
opposed to one being performed ad hoc. It also needs to ensure that both
the business and programmatic aspects of managing awards are
coordinated.

In performing our review, we identified six principles for an effective,
integrated management framework as well as fifteen award administration
and monitoring policies and practices that correspond to those principles.
These management principles and associated practices are listed in the
following chart:




                              6
PRINCIPLE ONE: Establish Management’s Commitment and
Provide a Clear Vision of Award Administration

Practice 1: Define Objectives of Award Administration and Monitoring

PRINCIPLE TWO: Establish the Organizational Structure to Carry
Out Award Oversight

Practice 2: Document Award Monitoring Roles and Responsibilities in
             Agency Policy
Practice 3: Coordinate the Financial and Programmatic Monitoring of
             Awards

PRINCIPLE THREE: Establish and Implement Award Monitoring
Policies and Procedures

Practice 4: Develop Award Monitoring Plans Based on Risk
Practice 5: Verify Cost Sharing Before Making the Award
Practice 6: Expand Requirements for Single Audits to Foreign and For-
             Profit Awardees
Practice 7: Use Progress Reports as a Basis for Continued Funding
Practice 8: Require and Analyze the Financial Information Necessary to
             Monitor Award Risk
Practice 9: Perform Desk Reviews and On-Site Monitoring Based on Risk
Practice 10: Develop Policies to Manage Known High Risk Awardees
Practice 11: Conduct Outreach and Provide Technical Assistance to
             Educate Awardees of Requirements

PRINCIPLE FOUR: Provide Training and Other Resources

Practice 12: Establish a Training Program
Practice 13: Provide Accessible Reference Materials

PRINCIPLE FIVE: Utilize Management Information Systems to
Facilitate Award Monitoring

Practice 14: Use Information Systems to Analyze Data and Measure
             Performance

PRINCIPLE SIX: Periodically Evaluate Award Administration and
Monitoring Processes

Practice 15: Evaluate Award Administration and Monitoring Activities



                            7
Principle One: Establish Management’s Commitment
and Provide a Clear Vision of Award Administration
        The most critical factor for the success of award administration and
        monitoring is the commitment of senior management. Senior management
        must provide a clear message to the organization’s personnel, as well as to
        the awardees, that it takes its stewardship responsibilities seriously and
        that award administration and monitoring activities are an important
        aspect of fulfilling those responsibilities. Senior management must also
        ensure that award administration and monitoring activities of grants
        management, program, and financial personnel are coordinated and
        integrated to ensure the effective oversight of all aspects of awardee
        performance. Most of all, senior management needs to ensure that
        adequate resources, including staffing, systems, and funding, are available
        to make the award administration and monitoring activities viable.
        Without adequate resources and support, award administration and
        monitoring cannot be performed effectively.

        As part of management’s commitment, it is crucial for senior management
        to provide a vision for award administration and monitoring that clearly
        articulates what it wants to achieve through these activities. The vision
        needs to convey management’s goals and direction for award
        administration and monitoring, as well as how the vision aligns with the
        organization’s overall goals and priorities. It should convey
        management’s commitment to provide sufficient funding and other
        resources for award administration and monitoring, and communicate to
        agency personnel management’s increased emphasis on these activities.
        In addition, the vision should lead to clearly defined objectives for award
        administration and monitoring that will guide the monitoring activities and
        serve as the basis for designing, implementing, and managing the award
        administration and monitoring activities.

        Practice 1: Define Objectives of Award Administration and
        Monitoring

        In its grants handbook,7 the Department of Education (Education) has
        outlined nine objectives at the award and program level that its monitoring
        activities should address. The monitoring objectives are as follows:

            a. Project Management – Assess the conformity, effectiveness and
               quality of project activities to an awardee’s approved proposal by


        7
         “Handbook for the Discretionary Grant Process” (Handbook OCFO-04), dated March
        31, 2003.


                                       8
         reviewing any revisions, performance reports, and/or other related
         documents;
    b.   Performance Measurement – Measure the awardee’s progress
         against previously established performance measures;
    c.   Cooperation – Facilitate good working relationships with
         awardees;
    d.   Compliance – Assess awardee adherence to requirements of laws,
         regulations, conditions of the award, certifications and assurances;
    e.   Fiscal Accountability – Verify that Federal funds are managed
         according to Federal cash management requirements and are
         expended only for authorized purposes;
    f.   Technical Assistance – Provide guidance to awardees to improve
         the administration, fiscal management, or evaluation activities of
         the project and helping to correct identified problems;
    g.   Follow-up – Assess the awardee’s success in acting on findings
         and/or recommendations of previous monitoring, evaluation
         studies, and/or Federal and non-Federal audit reports;
    h.   Dissemination – Gather technical information developed by an
         awardee about significant achievements that could serve as models
         for other projects;
    i.   Feedback – Present recommendations resulting from monitoring
         activities, especially those resulting from performance
         measurement, for use in revising program laws and regulations to
         enhance program effectiveness.

By clearly identifying the objectives of post award monitoring, Education
has not only stated what it hopes to achieve and reinforced its commitment
by specifying the aspects of its awards it will address through its
monitoring activities, but it has also identified the inherent risks8 of the
grant program that will be minimized through monitoring. For example,
within a grant program, risks exist that the purpose of the grant and/or the
grant program will not be achieved; that Federal funding will be misused
or accounted for improperly; and that awardees will not comply with all
award requirements. Education’s objectives anticipate these risks and
require monitoring actions to address them. Therefore, in meeting its
objectives, effective monitoring should mitigate the inherent risks of the
grant program.




8
 According to the “Guide for Studying and Evaluating Internal Controls in the Federal
Government” by Arthur Andersen, Revised August 1986, inherent risk is the potential for
waste, loss, unauthorized use, or misappropriation due to the nature of the activity itself.
Matters affecting the inherent risk of awards include the nature, purpose, and
characteristics of the awards, budget level, its duration, its degree of organizational
centralization, and special concerns.


                                    9
Principle Two: Establish the Organizational Structure
to Carry Out Award Oversight
        As part of its award oversight framework, the granting organization must
        establish a management structure to perform award monitoring. The
        granting organization should document the management structure to
        clearly identify the personnel involved in award monitoring and formally
        recognize their oversight roles, responsibilities, and authorities. While
        these award oversight roles should be balanced and integrated with other
        grant management functions, the organizational structure should ensure
        that staff are specifically assigned to the oversight function. Otherwise,
        staffing and budgetary resources for award monitoring activities may be
        redirected to other grant management activities, such as pre-award
        processing and review.

        In addition, the necessity for the different organizations within a granting
        organization, such as program and financial offices and personnel, to
        cooperate and coordinate with each other must also be articulated. The
        lack of a clearly defined management structure can lead to situations
        where the oversight responsibilities are not adequately covered or a
        duplication of effort exists. Communication between the different
        personnel and organizations involved can help to minimize these
        problems.

        Practice 2: Document Award Monitoring Roles and Responsibilities in
        Agency Policy

        The policies established by the Department of Health and Human Services
        (HHS) clearly recognize and describe the roles and responsibilities of both
        the grants management and the program personnel for award
        administration and monitoring. For example, according to these policies,
        grants management personnel are responsible for receiving and processing
        all awardee reports (both program performance and financial reports),
        reviewing the financial reports in coordination with the review of the
        program performance reports, and monitoring, on a continuous basis, the
        financial and business aspects of awards. Likewise, the program
        personnel have the equally important monitoring responsibility of
        evaluating programmatic performance and progress, serving as the focal
        point for responding to scientific and technical correspondence, and
        assisting the grants management personnel in reviewing project related
        expenditures. The policies further require that the grants management
        offices maintain the official files of record for each grant awarded by the
        operating divisions where all required awardee reports, financial as well as
        programmatic performance, and administrative actions are filed.



                                     10
Practice 3: Coordinate the Financial and Programmatic Monitoring
of Awards

HHS has also recognized the importance of teaming between the business-
oriented grants management personnel and the programmatic personnel in
its policies and emphasizes that they should work in partnership to ensure
effective award management. The policies state:

       “GMO (Grants Management Officer) responsibilities are
       distinguished from those related to the programmatic and technical
       aspects of financial assistance programs and awards, as represented
       by the PO (Program Officer). These distinctions arise from the
       need for appropriate management and internal controls as well as
       differences in expertise and primary focus; however, the two roles
       are complementary – not adversarial nor superior/subordinate. To
       ensure the most effective and efficient award and management of
       grants, the GMO and the PO should work in partnership, focusing
       on their respective areas of responsibility and expertise, and
       attempt to present unified positions to agency management and to
       the applicant/recipient. The GMO and PO roles are defined roles,
       each of which must be appropriately performed to ensure a
       compliant grant process and contribute to achievement of
       program/project outcomes. In most cases, these roles can be
       carried out in a responsible manner only when there is effective
       interaction between the GMO and the PO.”

Within most operating divisions at HHS, program and grants management
offices use a team approach to monitoring awards to meet their separate,
but overlapping responsibilities. The program office staff are responsible
for reviewing the scientific and technical progress and accomplishments of
the awardee, while grants management staff are responsible for assessing
the business and financial compliance aspects of awardee performance.




                            11
Principle Three: Establish and Implement Award
Monitoring Policies and Procedures
        While the Office of Management and Budget (OMB) has established the
        general reporting requirements for awardees through its circulars, each
        agency is responsible for and needs to establish its own policies and
        procedures to implement the circulars, to effectively carry out its specific
        award monitoring goals and objectives. These policies and procedures
        should address award monitoring in a holistic way, recognizing that
        programmatic and financial monitoring are inter-related activities that
        must be coordinated to work effectively. An agency must, therefore, tailor
        its award monitoring policies and procedures to provide for collecting and
        analyzing information pertinent to its particular award portfolio and to
        assessing and addressing the risks associated with those awards. Such
        risks should be considered at the grant program level (the number of
        awards, the number of awardees, and special requirements for specific
        grant programs), as well as at individual award level (the dollar value, the
        award’s purpose, the awardee’s experience with Federal grants, findings
        from prior audits, and other award characteristics such as sub-awards and
        cost sharing).

        By carefully considering its monitoring objectives and the identified risk
        factors, an agency’s specific monitoring policies and practices should
        provide clear and comprehensive guidance for effective award monitoring.
        The level of risk should determine the appropriate monitoring activities,
        and an agency should use its professional judgment to vary its specific
        monitoring activities to fit the particular risks of its award portfolio.

        According to COSO, monitoring can be done in two ways, either through
        ongoing activities, or through separate, periodic evaluations. Ongoing
        monitoring is built into the organization’s normal, recurring operations,
        and is done on a real-time basis. Conversely, periodic evaluations provide
        after-the-fact assurance that the organization being evaluated is complying
        with requirements. For award monitoring purposes, periodic evaluations
        determine if an awardee has complied with administrative, financial, and
        programmatic requirements of its awards. To be effective, periodic
        evaluations should vary in scope and frequency, depending upon the
        assessed risk of the particular award portfolio. Because ongoing
        monitoring reacts dynamically to changing situations, it is generally
        considered more effective than periodic evaluations.

        An agency may use either ongoing monitoring or periodic evaluations or a
        combination of both monitoring activities, depending upon the nature of




                                     12
and the level of risk associated with its award portfolio.9 For example, if
an agency has an effective, ongoing monitoring program for its active
awards, it might limit its use of periodic site visits to new or high-risk
awardees. Another agency may not have the resources or systems for a
built-in ongoing monitoring program, but may increase its program’s
effectiveness by planning more frequent periodic evaluations of higher
risk awardees. That agency might conduct monthly or quarterly telephone
status reviews with its higher risk awardees, in addition to annual written
progress reports.

A monitoring plan that combines ongoing activities and periodic
evaluations based on award risk is especially beneficial for agencies with
limited resources and travel funds. Where feasible, it focuses on
identifying and resolving issues as they occur through ongoing
monitoring, but allows for the periodic evaluations, such as site visits,
when the risk level justifies the expense.

Below we discuss several specific monitoring policies and practices that
organizations we reviewed have established as part of their monitoring
activities. These policies and practices focus on developing a
methodology for collecting, analyzing, and using information to ensure
compliance.

Practice 4: Develop Award Monitoring Plans Based on Risk

The use of monitoring plans ensures that the nature of the award and its
particular risks are identified and assessed upfront. The plans describe the
specific steps an agency will take to assess and address the risks of its
particular awards. The Washington State Department of Health
(WSDOH), as a recipient of Federal grant funds that awards the funds to
sub-recipients, has developed a monitoring plan, the Technical Assistance
and Monitoring Evaluation Tool, that assesses the level of risk of its
individual award sub-recipients, and recommends appropriate ongoing and
periodic monitoring activities for that level of risk. The Tool recommends
a variety of activities ranging from reviews of program reports and
financial documentation for a low risk sub-recipient to on-site program
monitoring and performance verification for a high-risk sub-recipient.

Similarly, both the Department of Justice (DOJ) and Education require
monitoring plans for their awardees, but they do so at different activity
levels. DOJ takes an award-level approach and develops a risk-based
monitoring plan for each award that grants managers follow throughout
the life cycle of the award to ensure that its goals and objectives are being
met and that activities and products are being completed in a timely

9
 “Draft - Enterprise Risk Management Framework,” Committee of Sponsoring
Organizations of the Treadway Commission, pp 79-82.


                               13
fashion. Monitoring priority is given to higher risk awards - those where
problems have been identified in the past, implementation has been
problematic, or where the awardee has specifically requested technical or
other assistance. The plan documents the assigned monitoring priority,
and describes how on-going and periodic monitoring will be done, what
the focus will be over the life of the grant, and what type of reports are
expected, all dependent on the risk of the individual award.

Education, on the other hand, uses a program-level approach and requires
annual monitoring plans at an organizational level. Each organization
within Education is required to submit to the Chief Financial Officer, a
plan for monitoring all the organization’s grants for the upcoming fiscal
year. The monitoring plan must discuss the program’s purpose, goals, and
objectives; the performance indicators and the data needed to evaluate
performance; the performance, both poor and exemplary, of individual
awardees in the program; the technical assistance available to mitigate
against poor performance and to help awardees achieve their goals; and
the program’s or awardees’ high risk areas and the monitoring steps to
address those areas.

In addition, Education requires its organizational components to submit an
annual report to the Chief Financial Officer on monitoring activities
undertaken during the previous fiscal year. The annual monitoring report
must 1) discuss the general monitoring activities undertaken, including the
different types of monitoring activities, the improvements made in the
monitoring process, and the barriers to further improvements that still
exist; 2) contrast both the programs monitored and the monitoring
activities undertaken with those that had been anticipated in the annual
monitoring plan, focusing on site visits made or other face-to-face
meetings with awardees; and 3) summarize any unusual findings,
favorable or unfavorable, revealed through the monitoring process, such as
exemplary projects recommended for replication or dissemination,
unauthorized expenditure of funds, violations of Federal law or regulation,
etc. The report must also describe actions taken on such findings.

Regardless of whether an individual award or a program-level approach is
used or whether the monitoring activities are customized for each award
based on its risk level, or standardized for all awards in a particular risk
category, it is important for an agency to have a plan that has been
developed thoughtfully. The plan should reflect the risks of the award
program, identify the ongoing and periodic monitoring activities, and
identify the resources needed to implement the plan.




                             14
Practice 5: Verify Cost Sharing Before Making the Award

Cost sharing is an award requirement that frequently creates difficult
issues in administering an award. Several organizations have taken a
proactive approach to addressing the issue. When an award is dependent
on cost sharing or matching, the Sloan Foundation requires the awardee to
provide evidence of the award’s cost sharing commitments before funds
are released to the awardee. Likewise, for National Institutes of Health
(NIH) construction grants, the source and amount of funds proposed by an
applicant to meet a matching requirement must be identified in the grant
application, and the applicant is required to demonstrate that the funds are
committed or available prior to award. In addition, NIH may require this
to be certified by the applicant. Such proactive requirements help address
cost sharing issues before they become serious problems, and provides
information that helps grant managers assess the award’s risk, and develop
an appropriate monitoring plan for the award.

Practice 6: Expand Requirements for Single Audits to Foreign and
For-Profit Awardees

A periodic single audit, which examines an entity’s financial statements
and expenditures for Federal awards, is required for State and local
governments, and non-profit organizations that expend $300,00010 or more
per year in Federal grants, cooperative agreements, and/or procurement
contracts. The audit reports contain meaningful information on entities’
financial status and the adequacy of their internal controls for managing
Federal funds. These audits can indicate where entities have problems or
issues in managing or accounting for its Federal award. Therefore,
reviewing an awardee’s single audit report is an important periodic
monitoring activity for an agency to perform.

Some agencies have extended the requirement for single audits beyond
their non-profit awardees to also require periodic single audits of their for-
profit and foreign awardees, as these organizations are often assessed to be
high- risk awardees. Periodic single audits provide the granting agencies
with assurance that for-profit and foreign awardees are financially sound
and that their accounting and management systems meet Federal
requirements.

NIH is one such organization with extended audit requirements.
Specifically, NIH requires its foreign and for-profit awardees to have an
audit if, during the awardee’s fiscal year, it expended a total of $300,000
or more under one or more of HHS’ awards, and at least one of those
awards is a grant. The awardee has the option of having either a financial-

10
  The threshold will be raised to $500,000 for fiscal years ending after December 31,
2003.


                                  15
related audit in accordance with Government Auditing Standards11 or an
audit that meets the requirements of OMB Circular A-133. Other
agencies, such as DOJ, also have similar periodic audit requirements for
their for-profit awardees.

Practice 7: Use Progress Reports As a Basis for Continued Funding

OMB Circulars require award recipients to prepare and submit periodic
progress reports that contain a comparison of the actual award
accomplishments with the goals and objectives established for the period;
reasons why goals and objectives were not met; and other pertinent
information, including, when appropriate, an analysis and explanation of
cost overruns.12 All agencies we reviewed require some version of a
progress report at least annually and some agencies may withhold funding
for continuation awards if the reports are not submitted. Like single audit
reports, progress reports are an important tool for monitoring the ongoing
activities of an awardee.

Education, however, takes this one step further and not only requires
progress reports from awardees, but also expects the progress reports to
show substantial progress has been made by the awardee in meeting the
award objectives before the awardee can obtain funding for continuation
grants. The awardee must provide data in the report that corresponds to
the scope and objectives reflected in the approved award proposal, and
also demonstrates that the awardee has made substantial progress within
the scope of the approved proposal in attaining the objectives of the grant.

Further, in making the determination, Education’s program staff reviews
the financial status of the award to ensure that it is consistent with the
reported programmatic progress. Program staff evidence their review by
signing and dating the report and including it in the grant file. The
program staff’s signature on the progress report certifies that the report
was read and the awardee is making the required substantial progress, and
that an obligation may be recorded and continuation award mailed. If
program staff believe the awardees have not demonstrated substantial
progress toward meeting their project’s program goals or objectives, they
must recommend that the funding to awardees should be discontinued
unless changes to the project that will enable the awardee to make
substantial progress in succeeding budget periods are approved.




11
   Government Auditing Standards are commonly referred to as the “Yellow Book”
(GAO-03-673G).
12
   OMB Circular A-110, Subpart C, Paragraph 51.


                                16
Practice 8: Require and Analyze the Financial Information Necessary
to Monitor Award Risk

All of the organizations we reviewed require periodic financial reporting
from its awardees to facilitate monitoring. They use the financial reports
to assess the awardees’ performance, both financial and programmatic.
However, the degree of financial detail required varies by organization.
For example, the Sloan Foundation requires awardees to report actual
costs yearly, by budget line item. The Rockefeller Foundation is more
stringent, requiring it awardees’ annual financial reports for each grant to
reflect both actual and budgeted costs for each line item.

For the Federal agencies we examined, most obtained the financial reports
cited in the OMB circulars. Typically, the agencies required the
submission of the Standard Form (SF) 272, Federal Cash Transaction
Report (FCTR), as well as the SF 269, Financial Status Report (FSR). The
FCTR allows an agency to evaluate the cash expenditures of an award for
excessive or delayed drawdowns, and as such, identify possible
performance or financial management problems. For example, a delayed
drawdown pattern may indicate that the work on the award has been
delayed or the awardee has financial management problems. Likewise, an
excessive drawdown pattern may indicate that the project will run out of
funds prematurely and the possible need for a scope change.

The FSR provides additional information that is not available through an
FCTR. For example, the FSR requires the reporting of cost sharing, which
can indicate whether the awardee is providing its share of the funds to
support the project and if not, whether the project is in jeopardy. The FSR
also requires the awardee to report program income related to an award,
which may provide insight into whether the granting organization can
reduce support to the awardee in the future. In addition, the FSR includes
the calculation of the overhead costs including the overhead rate, the
overhead base, and the overhead costs charged to the award. The final
FSR for an award also serves as the awardee’s certification as to the
accuracy and appropriateness of the costs it charged to the award. As part
of the financial monitoring, the agency should verify the accuracy of the
report’s arithmetic and overhead calculations, and should use the
information to assess compliance with the financial requirements of the
award. At the end of the award, the agency can use the FSR to determine
if there are any outstanding, unobligated funds that should be recovered
from the awardee.

Ideally, a granting organization would be able to effectively monitor and
analyze the financial and programmatic progress of awards with a low to
moderate risk using the FCTR in combination with the FSR. However, for
high-risk awards, the granting organization may also need more detailed



                             17
financial information such as comparisons of budgeted line items to the
actual costs, to perform a more complete evaluation of the awardee’s
progress.

The majority of agencies using the FCTR require their awardees to submit
them quarterly, in accordance with the OMB circulars; however, for the
FSR, the reporting frequency varied by agency. At the extremes, one
agency required the FSRs to be submitted quarterly, while another only
required it at the end of the award.

NIH, however, developed a different variation on reporting for the FSR,
allowing it to focus its resources more effectively. Rather than requiring
all awardees to report at the same interval, NIH implemented a risk-based
approach that adjusts the frequency of the reporting based on the
characteristics of the award or awardee. Awards that NIH considers
higher risk are required to provide financial reports more frequently than
lower risk awards. NIH requires annual FSRs for awards requiring close
project monitoring or technical assistance such as clinical trials, awardees
with a history of problems, and certain large or multi-project grants;
however, for most awards, NIH requires the submission of FSRs only at
the end of the award. In all cases, NIH continues to use quarterly FCTRs
to monitor the financial aspects of its awards.

Practice 9: Perform Desk Reviews and On-Site Monitoring Based on
Risk

Most periodic monitoring activities can be performed without visiting an
awardee, however, for higher risk awardees, an on-site monitoring visit
may be needed to provide firsthand assurance that awardees are meeting
the objectives and complying with the requirements of their awards. The
DOJ has established an active on-site financial monitoring program using
a risk-based approach to determine whether to conduct on-site visits or
rely on an evaluation of the awardee referred to as a desk review. To
evaluate awardees, DOJ uses risk-based criteria, such as the award
amount, the experience level of the awardee organizations, the age of the
grant program, and the level of risk inherent to the program. Based on the
risk assessment, it decides whether to conduct nationwide on-site financial
reviews of awardee organizations, or the less comprehensive desk reviews.

In fiscal year 2002, DOJ had planned to perform on-site financial reviews
of 441 grants totaling $1.21 billion, and desk reviews of 550 grants worth
$1.78 billion from a sample population of over 18,000 grants valued at
approximately $14.2 billion. DOJ accomplishes these on-site and desk
reviews with ten dedicated staff.




                             18
In performing a financial desk review, DOJ conducts a thorough
assessment of the official grant file. Specifically, DOJ ensures that the
awardee: 1) has made a timely submission of FSRs; 2) has accurately
completed the FSRs submitted; 3) does not have excess cash on-hand; and
4) has complied with the requirements of OMB Circular A-133, Audits of
States, Local Governments, and Non-Profit Organizations. Based on the
issues noted during the review, DOJ provides the appropriate technical
assistance to the awardee, and obtains any missing documentation
identified.

As part of its on-site financial monitoring, DOJ reviews the awardee’s
accounting system and policies and procedures, traces reported costs to
accounting records, reviews a sample of grant related transactions, and
provides technical assistance to address issues noted. DOJ has developed
a detailed Site Visit Review Guide that serves as a basis for conducting
consistent and comprehensive on-site reviews. Although it primarily
focuses on the financial system and costs, the guide also looks at the
internal controls related to travel, procurement, property and equipment,
and time records. Furthermore, it looks into special topics such as sub-
recipient monitoring, special conditions, and matching funds. After the
review, a site visit report is drafted and the program staff is debriefed, if
necessary. Additionally, DOJ obtains and reviews corrective action plans
from awardees and ensures the plans adequately address all issues
identified.

Practice 10: Develop Policies to Manage Known High Risk Awardees

OMB circulars provide for, but do not require, Federal agencies to impose
special grant conditions on high-risk awardees. Nevertheless, HHS has
established specific internal policies requiring awardees designated as high
risk to meet special conditions such as using the reimbursement payment
method rather than advance payment and requiring the awardee to report
more frequently on financial and program progress. The HHS policy
outlines a process to manage high-risk awardees and address the
awardee’s issues. At HHS, an awarding office can designate an awardee
as, “High-risk/Special award conditions” if it has concerns about the
awardee’s ability to meet performance expectations and accountability
requirements. The Office of Inspector General may also recommend this
designation as a result of adverse findings in its audits of the awardee.
These concerns could arise because of the awardee’s inexperience in
handling Federal funds, a history of poor programmatic performance,
financial instability, or inadequate management systems. Typically, HHS
uses available information such as proposals, audit reports, and
documented previous experience with the awardee as a basis for making
this determination.




                              19
When placing the more stringent conditions on a designated high-risk
awardee, HHS will simultaneously give the awardee the opportunity to
address its issues and perform on the award. In addition, the awardee will
be placed on the HHS Alert List, which notifies all awarding offices under
HHS of the high-risk designation. By consulting the list, other operating
divisions are able to determine whether they need to similarly condition
their own grants to protect the Federal interest. Awardees are not to
remain on the Alert List for more than two years, as HHS considers that
time adequate for an awardee to complete the required corrective actions,
and for HHS to assess the actions to ensure their effectiveness. If the
issues have not been addressed after two years, an awardee may be kept on
the list only if a justification is approved.

Practice 11: Conduct Outreach and Provide Technical Assistance to
Educate Awardees of Requirements

As part of their monitoring responsibilities, several organizations are
educating awardees on administrative and financial requirements using
outreach and technical assistance. This helps the organizations to
proactively identify issues before they become problems, as well as
prevent issues in the first place.

Outreach improves awardee knowledge of the organization’s policies,
rules, and regulations so that problems are avoided in the future, and
facilitates cooperation between the awarding organization and the
awardee. NIH has a formal outreach program that is committed to
providing an open environment promoting personal interactions with all
segments of its research community using a variety of activities such as
conferences, seminars, and workshops. It has also instituted Proactive
Compliance Site Visits to advance awardee compliance with policy and
legislative mandates, as well as to enhance an awardee’s own compliance
oversight activities. These proactive site visits are different from on-site
periodic monitoring in that NIH initiates these visits to assess the
institutions’ understanding of Federal grants management policies and
regulations rather than to assess their compliance with these requirements.
As such, the Proactive Compliance Site Visits are intended to minimize or
eliminate noncompliance, and to nurture a productive partnership between
the NIH and its awardee institutions. NIH’s proactive site visits facilitate
dialogue regarding NIH policies in a non-crisis, non-adversarial manner.

Since FY 2000, NIH’s Office of Extramural Research has performed eight
to ten of these visits each year at institutions that met specific criteria such
as the level and nature of support, as well as geographic and institutional
diversity. NIH posts a report on the site visits on its web site explaining
the process and provides the results of the visits.




                              20
In addition to outreach, other grant-making organizations are taking a
proactive approach to providing awardees with technical assistance on
financial and administrative requirements. These organizations focus on
providing awardees with assistance and consultation services in order to
resolve awardee problems and improve their performance. As part of its
monitoring program, the WSDOH, for example, emphasizes technical
assistance in its monitoring activities, stating it just “makes sense.” In
addition to meeting its financial stewardship responsibilities through
monitoring, providing technical assistance may forewarn the grantor of
any problems, may provide timely intervention, may supply needed
information, clear obstacles to success, and answer any technical
questions. Similarly, grants management at the Office of Naval Research
(ONR) also uses a proactive approach by providing technical assistance to
its awardees through periodic visits and other contact with awardees.




                            21
Principal Four: Provide Training and Other
Resources
        In order to properly fulfill their duties, personnel responsible for
        monitoring grants and cooperative agreements need adequate training and
        access to reference information. Such training and information help
        ensure personnel possess the skills and knowledge they need to perform
        their award monitoring duties effectively. All personnel must understand
        the purpose and the technical requirements of their monitoring roles, as
        well as how their individual duties relate to the work of others. They also
        need access to available reference materials to guide and facilitate the
        quality of their monitoring efforts.

        Practice 12: Establish a Training Program

        Training employees is a critical aspect of the grants management programs
        we reviewed, and we found HHS has established a training certification
        program to encourage employees to receive appropriate training. The
        HHS Grants Management Professional Certification Program recognizes
        those individuals in the grants management profession pursuing a higher
        level of competency through completion of a specific training curriculum.
        HHS developed this certification program as part of its HHS Grants
        Management Professional Development Program that, “is guided by a
        vision that grants management should consist of highly trained and
        competent professional employees actively applying their business and
        administrative skills in partnership with program management officials to
        ensure that grants programs are soundly managed, and that grant laws and
        regulations are followed.” The certification indicates in part that grants
        management personnel have satisfactorily completed a specific training
        curriculum that enhances their ability to effectively carry out their
        responsibilities. The individual operating divisions of HHS implement the
        Certification Program and may require completion of the training and/or
        certification as prerequisites to an employee’s appointment to a Grants
        Management Officer or Project Officer position.

        While not as comprehensive as the HHS training certification program,
        other organizations have also developed their own training courses
        specific to the needs of their award monitoring personnel. For example,
        the WSDOH has created a course to address monitoring of its sub-
        recipients, and Education has developed a course for conducting on-site
        monitoring. These courses help staff focus on issues or problems or a
        recurring nature, and guide them in addressing these issues.




                                     22
Practice 13: Provide Accessible Reference Materials

In addition to training, grants management personnel should have other
information resources available to enable them to perform their
monitoring responsibilities competently and effectively. Several
organizations, both Federal and non-Federal, are accomplishing this by
setting up Intranet or Internet sites to ensure monitoring personnel have
access to reference resources essential to their oversight activities. For
example, NIH has a grants management intranet site where it posts
information targeted specifically for personnel responsible for managing
grants. The web site maintains information on specific topics and, as an
additional resource, lists the names of “topic experts” who are available to
provide more information on specific subjects.

The WSDOH has also set up an intranet site for grants management. The
site provides basic management information for the organization such as
the mission statement, vision, and organization charts as well as pertinent
information for grants management such as Federal Compliance Updates
and the Grants Manual. In addition, the site has a question and answer
section where responses to frequently asked grant requirement questions
are addressed. The site also allows users to search for information by
specific words, and provides a forum in which grants teams can discuss
issues online.




                             23
Principal Five: Utilize Management Information
Systems to Facilitate Award Monitoring
        To facilitate administering and monitoring awards, pertinent information
        on the awardee’s programmatic and financial performance must be
        identified, captured and communicated in a form and timeframe that
        enable award monitoring personnel to carry out their oversight
        responsibilities. As such, some aspects of monitoring can be
        accomplished particularly effectively through the use of automated
        management information systems. Automated information systems
        enhance award administration and monitoring capabilities, as well as
        produce reports that make it possible to run and control operations. They
        deal not only with internally generated data, but also information about
        external events, activities and conditions necessary for informed business
        decision-making.

        Practice 14: Use Information Systems to Analyze Data and Measure
        Performance

        To facilitate its monitoring activities, ONR has developed an information
        system that allows its grant managers to proactively identify and address
        award issues before they become crises. The information system is
        centered on a database containing information for each individual grant,
        and facilitates many routine financial and programmatic monitoring tasks.
        For example, the system tracks the receipt of both technical and financial
        reports and performs basic accuracy checks on financial reports, and
        validates the data by crosschecking the balances to prior reports. It tracks
        the receipt of documents that are needed for closing out awards, and can
        automatically e-mail awardees for a variety of reasons, including to inform
        awardees of expenditure rate problems or to alert them of reports that are
        coming due. Thus, the system automates many of the routine tasks of
        monitoring awards, leaving award monitoring personnel free to
        concentrate on more complex monitoring tasks.

        In addition, the system tracks workload and goals of regional grant offices
        and calculates performance metrics to evaluate operational performance.
        ONR’s grants management has established organizational goals and the
        field offices are responsible for working toward these goals. ONR’s
        system facilitates this process by tracking data such as critical milestones,
        and uses that data to calculate the metrics to measure progress toward
        accomplishing these goals. The system also provides performance
        information such as the length of time taken to process new awards, the
        number of new awards made, the number of awards that have expired, the
        receipt of close out documents, and the number of close outs performed.



                                     24
Principal Six: Periodically Evaluate Award
Administration and Monitoring Processes
        In accordance with the final principle in the management framework, the
        overall award administration and monitoring process needs to be
        periodically evaluated to assess its effectiveness over time. This can also
        be accomplished through ongoing review activities, separate evaluations
        or a combination of the two. Ongoing review activities occur in the
        normal course of operations and include regular management and
        supervisory activities, and other actions personnel take in performing their
        daily award administration and monitoring duties. If separate evaluations
        are used, the scope and frequency of the evaluations will depend primarily
        on an assessment of risks and the effectiveness of ongoing review
        procedures.

        Practice 15: Evaluate Award Administration and Monitoring
        Activities

        To evaluate the effectiveness of its Grants Management activities, HHS
        recently implemented a measurement system called the balanced
        scorecard. The HHS Grants Management Balanced Scorecard (BSC) is
        administered on a three-year cycle and requires HHS to look at its own
        operational processes from multiple perspectives – the grants office, the
        program office, and the awardee. By obtaining information from each of
        these three groups, HHS gains a more complete picture of its operations.
        This scorecard provides a basis for measuring performance, as well as for
        making process improvements. The results of the surveys are analyzed
        and then used to improve grant system performance, operations, and
        policy activities. Grants management, policy staff, program staff, and
        other staff are involved as appropriate.




                                     25
